Audit of the National Aeronautics and Space Administration’s Fiscal Year 2012 Financial
Statements (IG-13-003, November 15, 2012)

The Office of Inspector General contracted with the independent public accounting firm
PricewaterhouseCoopers LLP (PwC) to audit NASA’s financial statements in accordance with
the Government Accountability Office’s Government Auditing Standards and the Office of
Management and Budget’s Bulletin No. 07-04, “Audit Requirements for Federal Financial
Statements,” as amended.

The audit resulted in an unqualified opinion on NASA’s fiscal year (FY) 2012 financial
statements. An unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and the results of the entity’s operations in conformity
with U.S. generally accepted accounting principles.

PwC also issued its reports on internal control and compliance with laws and regulations. For
FY 2012, PwC identified one significant deficiency related to the environmental liability
estimation process. During the audit, PwC identified no instances of significant noncompliance
with applicable laws and regulations.

See the Financials section of NASA’s FY 2012 Agency Financial Report for the Inspector
General’s transmittal letter and PwC’s audit reports at
http://www.nasa.gov/pdf/707292main_FY12 AFR 111512 FINALv2.pdf.
